                   AUDIT REPORT

              Audit of NRC's Implementation of 10 CFR Part 21,
                  Reporting of Defects and Noncompliance


                      OIG-11-A-08     March 23, 2011




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                          March 23, 2011



MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC'S IMPLEMENTATION OF 10 CFR PART
                            21, REPORTING OF DEFECTS AND NONCOMPLIANCE
                            (OIG-11-A-08)

Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Implementation of 10 CFR Part 21, Reporting of Defects and Noncompliance.

The report presents the results of the subject audit. OIG discussed the audit results and
informal agency comments with agency management and staff during an exit
conference on February 1, 2011, and during a meeting on February 23, 2011. OIG
incorporated the agency’s informal comments into this final report as appropriate. NRC
management stated that the report will be helpful in adding clarity in the associated
regulatory area and opted not to provide formal comments.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or R.K. Wild, Team Leader, Nuclear Reactor Safety Team, at 415-5948.

Attachment: As stated
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee
  on Reactor Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety
  and Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Michael F. Weber, Deputy Executive Director for Materials, Waste,
  Research, State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director
  for Corporate Management, OEDO
Martin J. Virgilio, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Mary C. Muessle, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Office
Roy P. Zimmerman, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Cheryl L. McCrary, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
Miriam L. Cohen, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Catherine Haney, Director, Office of Nuclear Material Safety
  and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
James T. Wiggins, Director, Office of Nuclear Security
  and Incident Response
William M. Dean, Acting Regional Administrator, Region I
Victor M. McCree, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                          Audit of NRC’s Implementation of 10 CFR Part 21, Reporting of Defects and Noncompliance



EXECUTIVE SUMMARY



                  The Nuclear Regulatory Commission (NRC) endeavors to protect the
                  public health and safety and the environment through the regulation of the
                  104 operating nuclear power plants in the United States. The Energy
                  Reorganization Act of 1974, as Amended, Section 206, Noncompliance1
                  provides the statutory basis for NRC guidance and regulations that pertain
                  to reporting component defects2 in operating reactors. Specifically,
                  Section 206 requires licensees that operate nuclear power plants to notify
                  NRC of defects in basic components3 that could cause a substantial safety
                  hazard.4

                  NRC uses Title 10, Code of Federal Regulations, Part 21, Reporting
                  of Defects and Noncompliance (Part 21) to implement the provisions
                  of Section 206. The primary NRC office responsible for Part 21
                  implementation among licensees with operating plants is the Office
                  of Nuclear Reactor Regulation.




                  The purpose of this audit was to determine if NRC's implementation of
                  Federal regulations requiring reactor licensees to report defects contained
                  in installed equipment is meeting the intent of the Energy Reorganization
                  Act of 1974, as Amended, Section 206, Noncompliance.



1
  For the purposes of this report, Energy Reorganization Act of 1974, as Amended, Section 206, Noncompliance is
referred to as Section 206.
2
  A defect is a deviation in a basic component delivered to a purchaser for use in operating nuclear power plants if,
on the basis of an evaluation, the deviation could create a substantial safety hazard.
3
  A basic component is a structure, system, or component that assures the integrity of the reactor coolant pressure
boundary; the capability to shut down the reactor and maintain it in a safe shutdown condition; or the capability to
prevent or mitigate the consequences of accidents. It is, essentially, a safety-related component.

4
  A substantial safety hazard is the loss of safety function to the extent that there is a major reduction in the degree of
protection provided to public health and safety. Safety functions are necessary to assure the integrity of the reactor
coolant pressure boundary, the capability to shut down the reactor and maintain it in a safe shutdown condition, or
the capability to prevent or mitigate the consequences of accidents that could result in certain potential offsite
exposures.




                                                             i
          Audit of NRC’s Implementation of 10 CFR Part 21, Reporting of Defects and Noncompliance




     NRC staff has initiated action to better align NRC's defect reporting
     guidance with Section 206 of the Energy Reorganization Act. However,
     NRC will need to take further action so that NRC’s implementation of Part
     21 fully meets the intent of Section 206.

     Despite Section 206 requirements for licensees that operate nuclear
     power plants to notify NRC of defects in basic components that could
     cause a substantial safety hazard, NRC staff have noted Part 21 reporting
     issues, and Office of the Inspector General (OIG) analysis of industry data
     indicate that there are apparent unreported Part 21 defects. These
     reporting issues exist because NRC regulations and guidance for
     implementing Section 206 are contradictory and unclear, and the NRC
     Baseline Inspection Program does not include requirements to inspect
     licensee reporting of Part 21 defects. Unless NRC takes action to fully
     implement Section 206, the margin of safety for operating reactors could
     be reduced.




     This report makes five recommendations to improve NRC’s
     implementation of Part 21. A list of these recommendations appears on
     pages 12-13 of this report.

AGENCY COMMENTS

     On January 19, 2011, OIG issued the discussion draft of this report to the
     Executive Director for Operations. OIG subsequently met with NRC
     management officials and staff during a February 1, 2011, exit conference
     at which time the agency requested additional time in order to provide
     informal comments. OIG met with agency management and staff on
     February 23, 2011, to discuss these comments; afterward, OIG
     incorporated the informal comments into the draft report as appropriate.
     NRC management and staff reviewed the revised draft OIG report, found
     that the report will be helpful in adding clarity in the associated regulatory
     area, and opted not to provide formal comments.




                                        ii
             Audit of NRC’s Implementation of 10 CFR Part 21, Reporting of Defects and Noncompliance



ABBREVIATIONS AND ACRONYMS

       CFR             Code of Federal Regulations

       EQVB            Division of Engineering, Quality and Vendor Branch

       IP              Inspection Procedure

       LER             Licensee Event Report

       NRC             Nuclear Regulatory Commission

       NRR             Office of Nuclear Reactor Regulation

       OIG             Office of the Inspector General




                                           iii
                    Audit of NRC’s Implementation of 10 CFR Part 21, Reporting of Defects and Noncompliance



TABLE OF CONTENTS

    EXECUTIVE SUMMARY ....................................................................................... i

    ABBREVIATIONS AND ACRONYMS .................................................................. iii

    I.      BACKGROUND ........................................................................................ 1

    II.     PURPOSE ................................................................................................ 4

    III.    FINDING ................................................................................................... 5

                 DESPITE REPORTING REQUIREMENTS, THERE ARE
                 UNREPORTED PART 21 DEFECTS ............................................................. 5

    IV.     AGENCY COMMENTS ............................................................................ 14


    APPENDIX

            SCOPE AND METHODOLOGY .............................................................. 15




                                                       iv
                          Audit of NRC’s Implementation of 10 CFR Part 21, Reporting of Defects and Noncompliance



I.     BACKGROUND

                  The Nuclear Regulatory Commission (NRC) endeavors to protect the
                  public health and safety and the environment through the regulation of the
                  104 operating nuclear power plants in the United States. The Energy
                  Reorganization Act of 1974, as Amended, Section 206, Noncompliance5
                  provides the statutory basis for NRC guidance and regulations that pertain
                  to reporting component defects6 in operating reactors. Specifically,
                  Section 206:

                       Requires licensees that operate nuclear power plants to notify NRC of
                       defects in basic components7 that could cause a substantial safety
                       hazard.8

                       Requires NRC to define, by regulation, defects which could create a
                       substantial safety hazard.

                       Identifies the civil penalties that are to be imposed for noncompliance
                       and posting requirements at licensees’ facilities, and authorizes
                       inspections and other enforcement activities needed to ensure
                       compliance with the provisions.

                  NRC Component Defect Reporting Regulation

                  Title 10, Code of Federal Regulations (CFR), Part 21, Reporting of
                  Defects and Noncompliance (Part 21) implements the provisions of
                  Section 206. Part 21 requires that licensees inform NRC if they obtain


5
  For the purposes of this report, Energy Reorganization Act of 1974, as Amended, Section 206, Noncompliance is
referred to as Section 206.
6
  A defect is a deviation in a basic component delivered to a purchaser for use in operating nuclear power plants if,
on the basis of an evaluation, the deviation could create a substantial safety hazard.
7
  A basic component is a structure, system, or component that assures the integrity of the reactor coolant pressure
boundary; the capability to shut down the reactor and maintain it in a safe shutdown condition; or the capability to
prevent or mitigate the consequences of accidents. It is, essentially, a safety-related component.

8
  A substantial safety hazard is the loss of safety function to the extent that there is a major reduction in the degree
of protection provided to public health and safety. Safety functions are necessary to assure the integrity of the
reactor coolant pressure boundary, the capability to shut down the reactor and maintain it in a safe shutdown
condition, or the capability to prevent or mitigate the consequences of accidents that could result in certain potential
offsite exposures.


                                                            1
                         Audit of NRC’s Implementation of 10 CFR Part 21, Reporting of Defects and Noncompliance



                  information that indicates that basic components fail to comply with
                  regulatory requirements relating to substantial safety hazards or contain
                  defects that could create a substantial safety hazard.

                  NRC revised Part 21 in 1991. Among other things, the revision was
                  intended to reduce duplicative licensee reporting requirements, and allow
                  for reporting of defects under NRC event reporting regulations. These
                  NRC event reporting regulations are contained in Title 10, CFR, Part
                  50.72 and Part 50.73 (Part 50 Sections 72/73).9

                  There are differences between Part 21 and Part 50 Sections 72/73
                  reporting requirements. One difference is that Part 21 concerns itself with
                  component defect reporting, whereas Part 50 Sections 72/73 describe
                  event reporting. Consequently, the thresholds for reporting a component
                  defect under Part 21 are different than those for Part 50 Sections 72/73,
                  as shown in Figure 1.

                    Figure 1: Defect Reporting vs. Event Reporting Differences
                             Defect Reporting                  Event Reporting
                                 (Part 21)                     (Part 50.72/73)



                                  Could cause loss of                  Actual loss of
                                    safety function                   safety function




                                  Component failure                 Component failure
                                  caused by Part 21                  due to any cause
                                       defect




                    Source: Office of the Inspector General analysis of reporting requirements.


                  Another difference between the Part 21 defect reporting and Part 50
                  Sections 72/73 event reporting requirements is that Part 21 defect
                  reporting requires an evaluation and report if the defect could cause a loss
                  of safety function, whereas Part 50 Sections 72/73 events require

9
   Title 10, CFR, Part 50.72, Immediate notification requirements for operating nuclear power reactors, describes how
licensees must notify NRC of events and conditions and Title 10, CFR Part 50.73, Licensee event report system,
describes the type of events and conditions that must be reported to NRC in Licensee Event Reports.
                                                         2
                      Audit of NRC’s Implementation of 10 CFR Part 21, Reporting of Defects and Noncompliance



               reporting of only actual losses of safety function.10 In addition, Part 21
               defect reporting requirements include individual component failures if the
               failures are caused by a defect. Part 50 Sections 72/73 would not require
               reporting of an individual component failure unless the failure caused a
               loss of safety function. Typically, safety functions are supported by
               multiple redundant components—such as multiple service water pumps—
               so that loss of a single component does not cause a loss of safety
               function.

               To illustrate the difference, two nuclear power plants could experience the
               same basic component failure due to a defect that did not cause an event.
               Some licensees interpret this as reportable under Part 21, whereas others
               do not, since an event did not occur based on Part 50 Sections 72/73.
               However, Section 206 (which provides the statutory basis for Part 21)
               requires reporting of component defects that could cause a loss of safety
               function as well as those that did cause an actual loss of safety function.
               Part 50 Sections 72/73 only requires reporting if a failure actually caused a
               loss of safety function.

               Office of Nuclear Reactor Regulation (NRR) Responsibility for
               Part 21 Implementation

               The primary NRC office responsible for Part 21 implementation among
               licensees with operating plants is NRR. Two NRR divisions are
               responsible for monitoring and enforcing Part 21-related issues:

                   Division of Engineering, Quality and Vendor Branch (EQVB).




10
    Part 50 Sections 72/73 require power reactor licensees to notify NRC of any event or condition that
at the time of discovery could have prevented the fulfillment of the safety function of structures or
systems that are needed to (A) shut down the reactor and maintain it in a safe shutdown condition,
(B) remove residual heat, (C) control the release of radioactive material, or (D) mitigate the
consequences of an accident. Furthermore, Part 50 Sections 72/73 state that events required to be
reported under Part 50 Sections 72/73 may include one or more procedural errors; equipment
failures; and/or discovery of design, analysis, fabrication, construction, and/or procedural
inadequacies. However, individual component failures need not be reported under Part 50 Sections
72/73 if redundant equipment in the same system was operable and available to perform the required
safety function.




                                                    3
                Audit of NRC’s Implementation of 10 CFR Part 21, Reporting of Defects and Noncompliance



             o EQVB is primarily responsible for reviewing nuclear reactor
               operating experience relevant to the quality of components
               regulated under Part 21. EQVB works closely with NRR’s
               Operating Experience Branch to identify Part 21-related issues.
               EQVB also provides oversight through inspection and allegation
               follow-up of quality assurance and Part 21 implementation for
               component manufacturers.

             Division of Inspection and Regional Support, Operating Experience
             Branch.

             o The Operating Experience Branch is part of an NRC coordinated
               program to systematically collect and evaluate licensee operating
               experience, identify and resolve safety issues in a timely manner,
               and apply lessons learned from operating experience to support the
               agency goal of ensuring safety. Such reviews include evaluation of
               Part 50 Sections 72/73 licensee event reports (LER) for event
               occurrences that have Part 21 defective component implications.



II.   PURPOSE

          The audit objective was to determine if NRC's implementation of Federal
          regulations requiring reactor licensees to report defects contained in
          installed equipment is meeting the intent of the Energy Reorganization Act
          of 1974, as Amended, Section 206, Noncompliance. The report appendix
          contains information on the audit scope and methodology.




                                              4
                Audit of NRC’s Implementation of 10 CFR Part 21, Reporting of Defects and Noncompliance



III. FINDING

           NRC staff has initiated action to better align NRC's defect reporting
           guidance with Section 206 of the Energy Reorganization Act. However,
           NRC will need to take further action so that NRC’s implementation of Part
           21 fully meets the intent of Section 206.

           Section 206 requires licensees that operate nuclear power plants to notify
           NRC of defects in basic components that could cause a substantial safety
           hazard. However, NRC staff have noted Part 21 reporting issues, and
           Office of the Inspector General (OIG) analysis of industry data indicate
           that there are apparent unreported Part 21 defects. These reporting
           issues exist because NRC regulations and guidance for implementing
           Section 206 are contradictory and unclear, and the NRC Baseline
           Inspection Program does not include requirements to inspect licensee
           reporting of Part 21 defects. Unless NRC takes action to fully implement
           Section 206, the margin of safety for operating reactors could be reduced.

     Despite Reporting Requirements, There Are Unreported Part 21 Defects

           Despite Section 206 requirements for licensees that operate nuclear
           power plants to notify NRC of defects in basic components that could
           cause a substantial safety hazard, examples indicate that there are
           defective components that should be reported under Part 21, but are not.
           Specifically, NRC headquarters and regional staff and OIG have identified
           apparent unreported Part 21 defects. Furthermore, NRC staff and
           licensees described examples of licensees’ standard practice for reporting
           defective components that may result in the under-reporting of defects
           under Part 21.

                 Identification of Part 21 Reporting Defects

           NRC staff identified examples of apparent unreported defective
           components that could cause a substantial safety hazard as described in
           LERs under Part 50 Sections 72/73, but were not reported as Part 21
           defective components. Since mid-2009, when NRC inspectors became
           aware of potentially unreported defects during an inspection of a plant,
           agency staff have been evaluating LERs for potentially unreported defects
           under Part 21. Furthermore, NRR staff conducted an analysis of LERs

                                              5
     Audit of NRC’s Implementation of 10 CFR Part 21, Reporting of Defects and Noncompliance



with potential Part 21 implications during the period December 2009
through September 2010, and identified 24 instances of LERs that had
Part 21 implications but were not reported under Part 21.

OIG staff also identified examples of apparent unreported defective
components. OIG independently analyzed LERs submitted under Part 50
Sections 72/73 and found some describing defective components that
could cause substantial safety hazards, but were not reported to NRC
under Part 21. During the period June 2009 through June 2010, OIG
identified 11 LERs that contained apparent Part 21 reportable defects
where the licensee had not indicated that it had conducted a Part 21
evaluation or provided a Part 21 report. Given that the period of review for
OIG’s analysis of LERs was different than the agency’s review period, OIG
auditors requested NRR staff to review the OIG analysis results. NRR
staff concurred that 5 of the 11 LERs that OIG identified had apparent Part
21 reportable defects. NRR staff either did not support or could not
determine if the remaining LERs also had potential Part 21 reportable
defects based on the data available in the LERs.

Further, OIG reviewed three reactor control room logs recorded during the
4th quarter of 2009. OIG’s analysis indicates that for every safety-related
component failure that occurs and is reported, there are several that occur
but do not meet the level of reportability using Part 50 Sections 72/73
reporting criteria.

OIG also calculated for each year the number of Part 21 reports filed by
licensees since 1998. As Figure 2 indicates, there was a significant
decline in the number of Part 21 reports after 2001. Figure 2 also
indicates how many Part 21 reports were made through LERs according
to Part 50 Sections 72/73 reporting criteria.




                                   6
                       Audit of NRC’s Implementation of 10 CFR Part 21, Reporting of Defects and Noncompliance



Figure 2: Part 21 Reports from Nuclear Power Plants, 1998-2009
  50

  45

  40

  35
        21
  30

  25                                                                                 LERs as Part 21 Reports
  20                                                                                 Part 21 Reports
                            1
  15
              5
        22
  10
                           16                                    1
                   2
                                        2     1
   5         10
                                                     8     1
                   6                                             7     6      1
                                        5     5            4                  3
   0                              1

       1998 1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009

Source: OIG analysis of NRC data.

                        Examples of Licensee Standard Practices for Reporting
                        Defective Components

              During the course of the review, OIG met with agency and industry
              stakeholders to ascertain licensees’ standard practices for reporting
              defective components under Part 21. NRC staff and licensees described
              to OIG some examples of Part 21 reporting practices that indicate there
              are unreported defective components.

              NRC senior resident inspectors described licensee Part 21 reporting
              practices that indicate unreported defective components. Four of seven
              senior resident inspectors interviewed by OIG described a practice
              wherein licensees (1) evaluate whether a defective component caused an
              event under 50.72 reporting criteria, but (2) fail to follow up with a Part 21
              evaluation or submit a Part 21 report when the 50.72 evaluation concludes
              that the events caused by the defective component did not reach the
              threshold for reporting under Part 50 Sections 72/73. Senior resident
              inspectors provided OIG with the following examples:

                  LERs that should have been reported under Part 21, but were not.


                                                     7
                          Audit of NRC’s Implementation of 10 CFR Part 21, Reporting of Defects and Noncompliance



                       The licensee belief that loss of safety function was required to conduct
                       a Part 21 evaluation and report.11

                       A licensee that considers Part 50 Sections 72/73 event reporting
                       evaluations to meet Part 21 defect reporting requirements, even if the
                       Part 50 Sections 72/73 evaluation result is that the event is not
                       reportable to NRC.

                       A licensee that has opted not to conduct Part 21 evaluations or reports
                       because, according to the licensee, current regulations and guidance
                       do not require this as long as they did an event reporting evaluation.

                  NRC licensees also described their Part 21 reporting practices in a
                  manner that further indicated the likelihood of unreported defective
                  components. Some industry representatives stated that, as standard
                  practice, they do not notify NRC of Part 21 defects unless the defects are
                  reportable under Part 50 Sections 72/73 event reporting regulations.
                  Based on interviews and analysis, OIG determined that licensees
                  representing at least 28 percent of the operating reactor fleet do not, as
                  standard practice, notify NRC of defects under Part 21 unless they are
                  reportable under event reporting regulations.

                            NRC Regulations and Guidance for Implementing Section 206
                            Are Contradictory and Unclear

                  Part 21 component defect reporting issues exist because NRC regulations
                  and guidance for implementing Section 206 are contradictory and unclear.
                  Specifically, NRC regulations and guidance for implementing Section 206
                  contain stipulations that have been interpreted as not requiring a report
                  under Part 21 if an LER was not required. This interpretation seemingly
                  contradicts Section 206, which requires reporting of component defects
                  that could cause substantial safety hazards. Furthermore, applicable NRC
                  reportability guidance is not utilized by some licensees and NRC staff, and
                  NRC’s Baseline Inspection Program does not include requirements to
                  inspect licensee reporting of Part 21 defects.




11
   As shown earlier in Figure 1, Part 21 requires reporting the defect if a failure could cause loss of safety function,
not if it actually does.

                                                            8
     Audit of NRC’s Implementation of 10 CFR Part 21, Reporting of Defects and Noncompliance



      NRC Regulations and Guidance Are Interpreted as Relieving
      Licensees of Defect Reporting Obligations

NRC regulations and guidance for implementing Section 206 contain
stipulations that some licensees and NRC staff have interpreted as
relieving licensees of their obligation to report to NRC defects in basic
components that could cause a substantial safety hazard. This includes
specific language in Part 21, a 1991 Federal Register Notice that
summarized Part 21, and NRC guidance on event reporting in NUREG-
1022.

The agency introduced some uncertainty regarding event reporting when it
revised Part 21 in 1991. Part 21 Section 2(c), states:

      For persons licensed to operate a nuclear
      power plant under part 50 … of this chapter,
      evaluation of potential defects and appropriate
      reporting of defects under §§ 50.72, 50.73 …
      satisfies each person’s evaluation, notification,
      and reporting obligation to report defects under
      this part.

Moreover, the agency has interpreted language from the July 31, 1991,
Federal Register Notice, Statement of Consideration as guidance to
facilitate implementation of Part 21 Section 2(c). The Statement of
Consideration provides the following sentence which can also be seen as
contradictory to Section 206:

      If the event is determined not to be reportable
      under §50.72 or §50.73, then the obligations of
      Part 21 are met by the evaluation.

Additionally, in October 2000, NRC revised NUREG-1022, which provides
event reporting guidelines for Part 50 Sections 72/73. This 115-page
guidance document offers a three-paragraph subsection on Part 21, which
states (in part):




                                   9
                           Audit of NRC’s Implementation of 10 CFR Part 21, Reporting of Defects and Noncompliance



                             The only case where a defect in a basic
                             component of an operating reactor might be
                             reportable under Part 21, but not under §§
                             50.72, 50.73 … would involve parts on the
                             shelf.12

                    This language effectively leaves NUREG-1022 in conflict with Section 206.

                    The combination of the changes to Part 21 and associated guidance have
                    resulted in a lack of clarity for implementing Section 206. Given these
                    written passages in Part 21.2(c), NUREG-1022, and the July 31, 1991,
                    Statement of Consideration, some licensees have concluded that if they
                    conduct evaluations consistent with event evaluation and reporting
                    thresholds, then they have also met Part 21’s evaluation and reporting
                    requirements. Some NRC resident inspectors shared this interpretation
                    as well. One resident inspector indicated to OIG that conducting a
                    Part 50 Sections 72/73 evaluation and/or report fulfilled a licensee’s Part
                    21 requirements. Another resident inspector asserted that Part 21
                    evaluations and reporting are more the responsibility of the vendor than
                    the licensee.

                    To resolve confusion about implementing Part 21 component defect
                    reporting and to better align NRC’s defect reporting guidance with Section
                    206, NRC regional office personnel sought clarification from NRC
                    management officials. However, NRC management officials have
                    responded that defect reporting guidance and Part 21 itself have resulted
                    in multiple interpretations of Part 21 reporting requirements, which
                    presents an obstacle towards clarifying Part 21 reporting.13 Consequently,
                    NRC has not yet established a position that would result in consistent
                    interpretation and application of Part 21 guidance and regulations on the
                    part of NRC staff and resident inspectors, as well as licensees.




12
     Parts on the shelf refer to components that are in a nuclear power plant’s inventory that have not been installed.
13
   For example, recent inspections uncovered a potential Part 21 violation at a nuclear power plant that NRC has not
resolved for the past 2 years.
                                                            10
                         Audit of NRC’s Implementation of 10 CFR Part 21, Reporting of Defects and Noncompliance



                           Applicable Reportability Guidance Is Not Used

                  Existing NRC guidance for implementation of Part 21 is applicable, but not
                  all NRC staff and licensees use it. NUREG-0302, Remarks Presented
                  (Questions/Answers Discussed) at Public Regional Meetings to Discuss
                  Regulations (10 CFR Part 21) for Reporting of Defects and
                  Noncompliance, published in July 1977, contains guidance for Part 21
                  implementation and reporting. NUREG-0302 was published in 1977—
                  prior to the changes in 1991 that allowed reporting under Part 50 Sections
                  72/73 —and, therefore, does not include guidance on reporting Part 21
                  defects under Part 50 Sections 72/73.

                  According to agency staff, NUREG-0302 is not frequently used by less
                  experienced staff because it is “35 years old,” and is composed of public
                  meeting summaries. Consequently, newer staff are not as familiar with
                  NUREG-0302. Agency staff surmised that less experienced staff are
                  more likely to use recent guidance, such as the Statement of
                  Consideration, NUREG-1022, and less formal information obtained during
                  training. Senior NRR staff also indicated that the question-and-answer
                  format and numbering schematic in NUREG-0302 make it difficult to use.
                  NRR staff agreed that the guidance in NUREG-0302 remains valid to this
                  day, despite its lack of visibility to newer staff.

                           NRC Baseline Inspection Program Does Not Include Requirements
                           To Inspect Licensee Reporting of Part 21 Defects

                  The NRC Baseline Inspection Program does not include requirements to
                  inspect licensee reporting of Part 21 defects.14 Currently, the NRC
                  Baseline Inspection Program does not include a reference to Part 21-
                  related Inspection Procedures (IP). IP 36100, Inspection of 10 CFR Parts
                  21 and 50.55(e) Programs for Reporting Defects and Noncompliance,
                  provides guidance to NRC inspectors for inspecting Part 21 reporting at
                  operating nuclear power plants. Senior resident inspectors told OIG that
                  they are aware of IP 36100, but there was no “hook” in the Baseline



14
    The Baseline Inspection Program is an integral part of the NRC’s reactor oversight process. Its objectives are to
(1) obtain inspection information and performance indicators to assess safety performance of power reactor
licensees, (2) determine the licensee’s ability to identify and assess risk and effectively correct issues, (3) verify
accuracy and completeness of performance indicators, and (4) provide a mechanism for the NRC to remain
cognizant of plant status and conditions.

                                                          11
                        Audit of NRC’s Implementation of 10 CFR Part 21, Reporting of Defects and Noncompliance



                 Inspection Program that would prompt an inspector to consider conducting
                 an inspection using IP 36100.15

                          Incomplete Implementation of Section 206 Could Reduce the
                          Margin of Safety for Operating Reactors

                 Incomplete implementation of Section 206 could reduce the margin of
                 safety for operating nuclear power reactors as NRC may remain unaware
                 of component failures that have resulted from manufacturing defects.
                 Unless NRC takes further action to sufficiently implement Section 206,
                 staff and stakeholders may not be notified of component defects. For
                 example, given current interpretations of regulations and guidance related
                 to defect reporting, a licensee might not report a basic component that
                 failed due to a design defect. Other licensees that use the same
                 component, as well as component manufacturers, may be unaware of the
                 problem. Absent knowledge of manufacturing defects, NRC and its
                 stakeholders will also not be able to trend such information.

                 Additionally, NRC inspectors face difficulties in enforcing defect reporting
                 given the lack of clarity in Part 21 and related guidance. As noted earlier,
                 NRC inspectors have found possible Part 21 reporting violations.
                 However, pending resolution of the contradictory and unclear guidance
                 and regulations, the agency has opted not to cite licensees for violations
                 and not issue civil penalties for licensees’ failure to notify NRC of defects
                 in basic components that could cause a substantial safety hazard.
                 Therefore, NRC is not fully enforcing the Part 21 regulation as required by
                 Section 206. Furthermore, NRC has not levied any civil penalties or
                 significant enforcement actions for nuclear power plant licensee Part 21
                 defect reporting lapses in at least the past 8 years.

                 Recommendations

                 OIG recommends that the Executive Director for Operations:

                 1.       Revise 10 CFR Part 21 for full conformity with the Energy
                          Reorganization Act of 1974, As Amended, Section 206,
                          Noncompliance.


15
   The Baseline Inspection Program does not currently include guidance for how inspectors should check for
defective parts. NRR staff have indicated this is a condition that should be corrected.
                                                       12
     Audit of NRC’s Implementation of 10 CFR Part 21, Reporting of Defects and Noncompliance



2.    Expedite publication of interim guidance that specifies requirements
      for Part 21 reporting in accordance with the Energy Reorganization
      Act of 1974, As Amended, Section 206, Noncompliance.

3.    Correct the sections of NUREG-1022, Event Reporting Guidelines
      10 CFR 50.72 and 50.73, October 2000, that are in conflict with the
      Energy Reorganization Act of 1974, as Amended, Section 206,
      Noncompliance and 10 CFR Part 21.

4.    Review, revise as applicable, and reissue NUREG-0302, Remarks
      Presented (Questions/Answers Discussed) at Public Regional
      Meetings to Discuss Regulations (10 CFR Part 21) for Reporting of
      Defects and Noncompliance, July 12 - 26, 1977.

5.    Incorporate Inspection Procedure 36100, Inspection of 10 CFR
      Parts 21 and 10 CFR 50.55(e) Programs for Reporting Defects and
      Noncompliance into the NRC Baseline Inspection Program.




                                  13
              Audit of NRC’s Implementation of 10 CFR Part 21, Reporting of Defects and Noncompliance



IV.   AGENCY COMMENTS

         On January 19, 2011, OIG issued the discussion draft of this report to the
         Executive Director for Operations. OIG subsequently met with NRC
         management officials and staff during a February 1, 2011, exit conference
         at which time the agency requested additional time in order to provide
         informal comments. OIG met with agency management and staff on
         February 23, 2011, to discuss these comments; afterward OIG
         incorporated the informal comments into the draft report as appropriate.
         NRC staff reviewed the revised draft OIG report, found that the report will
         be helpful in adding clarity in the associated regulatory area, and opted
         not to provide formal comments.




                                           14
            Audit of NRC’s Implementation of 10 CFR Part 21, Reporting of Defects and Noncompliance



                                                                                        Appendix
SCOPE AND METHODOLOGY

       The audit objective was to assess the extent to which NRC's
       implementation of Federal regulations requiring nuclear power reactor
       licensees to report defects contained in installed equipment is meeting the
       intent of the Energy Reorganization Act of 1974, as Amended, Section
       206, Noncompliance. The audit scope was limited to NRC’s regulatory
       responsibilities as they pertain to commercial nuclear power plants. To
       address the audit objective, OIG interviewed agency headquarters and
       regional staff, senior resident and resident inspectors, and selected
       licensee officials. OIG also reviewed NRC regulations and guidance as
       well as LERs and Part 21 reports for the period June 2009 through June
       2010 and various inspection reports. OIG also analyzed control room logs
       for three reactor units, as well as agency-collected information pertaining
       to potentially unreported Part 21 defects.

       Key documents reviewed include:

          Energy Reorganization Act of 1974, as Amended, Section 206,
          Noncompliance.

          10 CFR Part 21, Reporting of Defects and Noncompliance.

          NUREG-0302, Rev 1, Remarks Presented (Questions/Answers
          Discussed) at Public Regional Meetings to Discuss Regulations (10
          CFR Part 21) for Reporting of Defects and Noncompliance.

          Federal Register Notice, Vol. 56, No. 147, Statement of Consideration,
          Part 21.

          NUREG-1022, Rev 2, Event Reporting Guidelines for 10 CFR 50.72
          and 50.73.

          Management Directive (MD) 8.18, NRC Generic Communications
          Program.

          Inspection Procedure 36100, Inspection of 10 CFR Parts 21 and 10
          CFR 50.55(e) Programs for Reporting Defects and Noncompliance.

                                         15
     Audit of NRC’s Implementation of 10 CFR Part 21, Reporting of Defects and Noncompliance



   Agency Office Instructions.

   Agency Generic Communications.

   Nuclear industry guidance documents.

Auditors conducted interviews with agency and industry employees,
including NRC managers and staff members at headquarters and the
regions, and members of the nuclear industry.

We conducted this performance audit at NRC headquarters in Rockville,
MD, from July 2010 through December 2010, in accordance with generally
accepted Government auditing standards. Those standards require that
the audit is planned and performed with the objective of obtaining
sufficient, appropriate evidence to provide a reasonable basis for any
findings and conclusions based on the stated audit objective. OIG
believes that the evidence obtained provides a reasonable basis for the
report findings and conclusions based on the audit objectives. Internal
controls related to the audit objective were reviewed and analyzed.
Throughout the audit, auditors were aware of the possibility or existence of
fraud, waste, or misuse in the program.

Major contributors to this report were R.K. Wild, Team Leader; Kevin
Nietmann, Senior Technical Advisor; Vicki Foster, Audit Manager;
Timothy Wilson, Senior Management Analyst; and Diane Furstenau,
Student Management Analyst.




                                  16
